NO

IN THE
SUPREME COURT OF THE UNITED STATES

ARTHUR O. ARMSTRONG

- PETITIONER

VS.
School District of Philadelphia, et al,

-RESPONDENTS

PROOF OF SERVICE
do swear or declare that on this date,
Arthur O. Armstrong
x 2020, as required by the Supreme Court Rule 29,1 have served the
April 20
enclosed CORRECTED PETITION FOR A WRIT OF CERTIORARI on each party in the above proceeding or
that party's counsel, and every other person required to be served by depositing an envelope
containing the above documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commerical carrier for delivery within 3
calendar days. Colin Stuart Haviland, Esq., School District of Philadelphia. Office of General Counsel. 440
N. Broad St. Ste 313. Philadelphia. PA 19130: (3) Linda M. Martin, Esq. 1845 Walnut Street. 14th Floor
Philadelphia. PA 1903., Harold Diamond. Esq., 434 Qlney Avenue, Philadelphia. PA 19135.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on__April 20, 2020.

v,

A

W}y^U)ri^i

v

(Signature)

